U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Mylan Laboratories LTD. v. Janssen Pharmaceutica, N.V., et al.,
S.Ct. No. 21-202
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 9,
2021, and placed on the docket on August 12, 2021. The government’s response is due on
September 13, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0202
MYLAN LABORATORIES LTD.
JANSSEN PHARMACEUTICA, N.V., ET AL.

JEREMY C. DOERRE
TILLMAN WRIGHT PLLC
3440 TORINGDON WAY
SUITE 310
CHARLOTTE, NC 28277
704-248-4883
JDOERRE@TI-LAW.COM
DEEPRO R. MUKERJEE
KATTEN MUCHIN ROSENMAN LLP
575 MADISON AVENUE
NEW YORK, NY 10022
ROBERT THOMAS SMITH
KATTEN MUCHIN ROSENMAN LLP
2900 K STREET NW
NORTH TOWER
SUITE 200
WASHINGTON, DC 2007-5118
202-625-3500
ROBERT.SMITH1@KATTENLAW.COM

